U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




 ECONOMIC DEVELOPMENT
       ADMINISTRATION

     Philadelphia Authority for
     Industrial Development
     Philadelphia, Pennsylvania
     Revolving Loan Fund
     EDA Grant No. 01-49-03274


  Audit Report No. ATL-15123-2-0001/August 2002




                  PUBLIC RELEASE
           Office of Audits, Atlanta Regional Office
U.S. DEPARTMENT OF COMMERCE
        Office of IlIspcctor Gelleral




      PUBLIC RELEASE


    ECONOMIC DEVELOPMENT
          ADMINISTRA TION

            Philadelphia Authority for
               Industrial Development
           Philadelphia, Pennsylvania
                 Revolving Loan Fund
          EDA Grant No. 01-49-03274

        Audit Report No. ATL-/512J-l-()()()J I August 2002




           Office ofAudits, At/an/a Regional Office
us. Department o/Commerce                                      Audlt Report ATL- IS 123·].fJOO1
0fl1cc oflnsplXlDr Genqql                                                         Auguf( 2002


                                    TABLE OF CONTENTS
                                                                                         Page

EXECUTIVE SUMMARY _

INTRODUCTION                                ..

OI3JECTIVES. SCOPE AND METHODOLOGY ...                                                     2

FINDINGS AND RECOMMENDAnONS                      .                                         )


   CORPORATION HAD OVER $735.000 IN EXCESS
                                                                                           3
   RLFCASlI. _. .                   .

     Excess Funds Caused by Low RLF Activity.                                              )


      Recent Effort Madc to Increase RLF Marketing.                                        4

     Grantee Response               .                                                      4

      OIG Cnmm£"nts             .                                                          5

      Recommendation ...                                                                   5

      Funds 10 Be rut to Beller Use                    _                                   5

   CORPORAnON HAS NOT COMPLIED WITH CERTAIN                                                6
   OTHER RLF ADMINISTRA1WE REQUIREMENTS ... _

      Some RLF Loan Fees Not Recorded in Fund Account .....                                6

      Prior RLF Reports Not Submitted ..                                                   6

      Latest RLF Report Not Accurate. Complete or Timely .__                               6

      RLF Plan Certifications Not Submitted                                                7

      RLF Administrative Costs Mistakenly Charged ..                                       7

      Grantee Response                  .                                                   8

      OIG Comments          .                                                               8

      Recommendations .....                                                                 8
us. Dl'panment ofCommerce                      Audit Report ATL-/j/lj·).f){J{)1
OffI<f   o(fn.<f?fClqr G!W£ral                                   Augw' 2(}()]

         Funds to Be Pm to Better Use ,_                                   8

APPENDIX 1- GRANTEE RESPONSE TO DRAFT AUDIT REPORT
US {kparlment ofCommerce                                            ..Iud" Ref"J" A TL-/512J_}·OOO/
otr«:e oflMpmor Gcnerql                                                                 dugflSc2002

                                  EXECUTIVE SUMi\IARY

In April 1993, the Economic Development Administration (EDA) awarded a $2,700,000 Sudden
and Severe Economic Dislocation lmplememmion grant, No. 01-49-03274. to the Philadelphia
Authority for Industrial Development. The grant was funded under Title IX of the Public Works
and Economic Developmem Act of 1965. as amended. EDA awarded the grant in response to
the closing of three U.s. Navy facilities in Philadelphia.

The grant included S I,600,000 to establish a revolving loan fund (RLF) and required the
authority to provide $750,000 in matching funds, which brought the RLF's total capitalization to
$2,350.000. The RLF was to be used to assist defense-dependent businesses in converting to
non-defense sectors and to assist other businesses in creating new jobs for dislocated workers.
The RLF is administered by the Philadelphia IndllStrial Developmem Corporation.

We perfonned a financial and compliance audit of the RLF during April 2002. Our objectives
were to (I) detennine the financial status of the RtF. (2) the corporation's compliance with
applicable federal laws and regulations. grant «,>nns and conditions. and the RLF plan, and
(3) the propriety of administrative costs charged to the RLF.

Our audit diselosed that the corporation had $735.()48 in excess RLF cash as of March 2002. and
has retained excess funds for three consecutive semiannual periods. which violates EDA
guidelines and is contr"ry to RLF program objectives. The excess funds have resulted from the
corporation not making enough new loans in recent years to use all of the revenues generated by
repayments of earlier loans and investment income.

Corporation officials. in their draft report response. did not dispute our finding thmthe
corporation had $735.048 in excess RLF funds but did not agree with our recommendation that
EDA recover the funds. Instead. the officials stated that EDA has recently approved a grant
amendment allowing the corporation to make a 15-year loan up 10 $1.31 0.000 that. if approved.
will eliminate the excess cash balance.

We recognize the corporation's authority to make the proposed loan. provided that it fully
complies with all RLF requirements. We are recommending that. if the loan is not approved.
EDA's Philadelphia Regional Director immediately recover the agency's $500,458 share of the
$735.048 in excess funds and remit the funds to the U.S. Treasury. If the loan is approved, we
plan to conduct a follow-up audit to detennine whether the loan fully complies with all RLF
requircments.

Our audit also disclosed that the corporation has not complied with certain other RLF
administrative requirements. Specifically, the corporation did not record $16,410 in RLF loan
fees as income or deposit the income into the RLF account. did not submit required RLF status
reports to EDA for three semiannual periods, and reported inaccurate and incomplete data 10
EDA in the latest RLF status report and submincd the report late, Also, thc corporation did not
submit required annual RLF plan certifications to EDA and mistakenly charged $4,875 in
administrative costs to the RLF.
us. DepanmC~1 ofCommerce                                           AudJl Rrpa'i ATL_! 5113_2_(j()()!
Wlfg gC!tw>fcIQ! 9£&,q1                                                               tlug~"   10Q2

'The officials agreed with our findings and recommendations relating to their noncompliance with
certain other RLF administrative requirements. The officials stated that they have depositl-d
$21,285 into the RLF aecoUlll to implement two draft report recommendations and that they are
taking steps to implement the two remaining recommendations.

We concur with the corporation's affinnative response and have omined two draft report
recommendations pertaining to the $21.285 RLF deposit. We are recommending that EDA's
Philadelphia Regional Director require the corporation to (Il submit all required semiannual RLF
status reports to EDA and ensure that the reports are complete. accumte and timely. and (2)
submit annual RLF plan certifications and necessary plan modifications to EDA.

We have summarized the corporation's draft report response and provided our commems in the
appropriate repon sections. We also have included the corporation's complete response.
excluding two anaehments. as Appendix L




                                                ;i
US lNfXlrlmem of Commerce                                             ~will   RepOFl ~ TL-15 / 23_]·000/
OfftCf Q(Jrnpec(Qf (h;"£rq!                                                                A Ygl/.l( 2002

                                       INTRODUCTION

In April 1993, the Economic Development Administration (EDA) awarded a $2.700,000 Sudden
and Severe Economic Dislocation Implementation grant. No. 01-49-03274, to the Philadelphia
Authority for Industrial Developml.'nt. The grant was funded under Title IX of the Public Works
and Economic Development Act of 1965. as amended. EDA awarded the grant in response to
the closing of three U.S. Navy facilitil.'s in Philadelphia.

The $2,700,000 grant included $ I .600.000 to establish a revolving loan fund (RLF) and
$1,100,000 for three technical assistance projects. The RLF element required the authority to
provide $750,000 in matching funds. which brought the RLf's total eapitali7.<ltion to $2.350,000.
The RLF was to be used to assist defense-dependent businl.'SSCS in converting to non-defense
sectors and to assist other businesses in creating new jobs for dislocated workers.

The authority's primary mission is to promotc commcrcial. industrial. and other cconomic
devclopmelll projects for the City of Philadelphia. Howcver. because thc authority has no
fuff-time staff. it transferred thc RLF award to the Philadelphia Industrial Development
Corporation-Local Developmcnt Corporation. an affiliated nonprofit corporation. This
corporation then entered illlo a managemcm agrcernern with the Philadelphia Industrial
Developmcnt Corporation. another nonprofit corporation, to administcr the RLF.

As of March 31. 2002. the corporation had made 12 RLf loans totaling $2,955.000. Of the
12 loans. 4 had been fully repaid. 2 had becn "'rillen-off. 3 were delinquent and 3 were current.
The six delinquent and currelllioans had 11 total outstanding principal balance 01'$688,580.
US Deparlment ojCommerre                                               Audit Report An·) 51 }).}.fI()()}
Officf oflnswqor GfMral                                                                   AU£H'12QQ1

                      OIJJECnVES, SCOI'E AND r.n:TIIOOOLOGY

Because the RLF is administcred by thc Philadelphia Industrial Dc"elopment Corporation. our
financial and compliance ~udit focuscd on this corporation. Our lIudit objectives were to
detennine (I) the financi~lslatus of the RLF. (2) the corpor~tion 's compliance with applicable
federal laws and regulatioll5, gram terms and conditions. and the RLF plan, and
(3) the propriety of administrative costs charged to thc RLF.

We performcd the audit fieldwork in April 2002 at the corporation's office in Philadelphia.
I'ennsylvarua. The audit covered the period from April I, 1999, thmugh March 31, 2002. We
examined pertinent EDA and corporation RLF records, and interviewcd agency and grantee
officials as deemed necessary.

We rcviewed the corporation's most recent single audit report for the fiscal year ended
Deccmber 31, 2000. The audit was conducted by an independent certified public ~ccounling
finn in accordance with Office of Managcment and Budgct Circular A-I33. lbe report disclosed
no matcrial imcmal control weaknesses but did disclose some noncompliance findings, relating
to the RLF grant, th~t were not classified as material and were being resol\'cd. We did not rely
upon the accounting finn's imcmal control revicws but instead d<:\crmined tiM we could beuer
meet our audit objectives through dctailed substantive testing of RLF transactions.

We relied on computer-processed data supplied by the corporation as the basis lor some of our
audit findings and recommendations. Consequently. we tested the data's accuracy by tracing lind
comparing the data to original source documents and other supporting documents Based on our
tests. we concluded that the data was sufficiently reliable for use in mceting our obje<:ti\'es.

We also cvalu.~ted the corporation's compliance with fedcral laws and regulations applicable to
the grant projcct. We idcmified Title IX ofthe Public Works and Economic Del'e1opmenl Act of
1965. a,I' amended, as the applicable federal law. We also identified EDA's Re"oll'ing Loan
Fund Gra1/I~' Administration Manual. EDA's Re>'ol\"ing Lmm Fund Grants Standard Terms and
Conditions. and EDA's Sj.l'Ceial Tenns and Conditions as the applicable federal requiremcnts,

Since a nonprofit corporation administers the RLF. we also identified OMB Circular A-IIO
Uniform Administrati,'e Requiremellis for Grams and Agreemellis With Institll/ions of fligha
Education, Hospitals, al1d Other !'ion-Profit Organizations. and OMB Circular A-Ill Cost
Principles for Non-Profit Organizations. as additional federal requirements.

We found that the corporation was not in compliance with certain RLF grant requirements.
The noncompliance issues were deemed material and are detailed in the "Findings and
Recommendations" section of this report. With regard to items not tested, nothing came to our
attention that causcd us to believe that the corporation had not complied in all matcrial respects,

We conducted the audit in aceord:mce with generally accepted govcrnmcnt auditing standards,
and perfonncd it under thc authority of the Inspector Genernl Act of 1978, as amcnded, and
Dcp.~rtment Organization Order 10-13, dilted M"y 22. 1980. as amended.
us. Department of Comm",.""                                           Audit R~fIO"r ArL·! 5!] l·}..(}()()J
Offir:e oflll5wC!Or Groeral                                                                August 1002

                              FINJ)JNGS AND   RECO'''I~l   ENIJATIONS

CORl'ORATION HAl) OVER S735,000
IN EXCESS RLF CASII

The corporation had $735,048 in excess RLF cash funds as of March 2002, and has retained
excess funds for three consecutive semiannual periods. Thc corporation's retention of excess
funds violates EDA guidelines and is contrary to RLF program objectives. The excess funds
have resulted from the corporation not making enough new loans in recent years to use the
revenues generated by repayments of earlier loans and investment income. Corporation officials
stated that they are now morc actively marketing the RLF and indicated, in their draft repon
response, that they are considering a loan that, ifapproved, will eliminate the excess cash
balance. We believe that if the loan is not approved, EDA should immediately recover the
agency's share of the excess funds and remit the funds to the U.S. Treasury.

Excess Funds Caused b}'
Low RLF Aetivity

The RLF program assists economically distressed areas by creating loan funds for use in making
business loans designcd to save or cremc jobs. In ordcr to realize the program's potcntial, EDA's
RLF Grants Adminislrative Mamml, Section X.A .. requires RLF operators to maximi:w the
amount of capital loaned out or eommined at all times. According to the manual. at least 75
pereent of an RLF's capital should be in use and whcn thc pertentage of capital loaned out falls
below this standard, thc amO\Ult offunds equivalcnt to the difference between the percentage of
capital loaned out and the standard rcpresents excess funds.

The manual also addresses prolonged excess funds and states that when a second consecutive
RLF status repon shows that the 75 percent standard has not be.:n met, EDA may require an RLF
operator to deposit the excess funds into a separatc interest-bearing account. The manual states
that interest earned on the aCCOUlll, attributable to the EDA grant, should be remitted to the U,S.
Treasury. Also. Se<::tion XII,C. of the manual states that RLF operators who persistcntly fail to
make maximum use ofthc available RLF capital will be required to return excess funds to the
U.S, Treasury.

The corporation had accumulated $735.048 in excess cash funds, as of March 31, 2002, based on
the corporation's $2,498,171 fund b.~lance and EDA's 75 percent usage standard. The excess
funds balance takcs into account thc $688,580 in outstanding loans and $450,000 in pending loan
commitments as of the March date. The following table shows how the corporation's excess
funds were determined




                                                 ,
us. Department a/Commerce                                                  Aud,' Reporl ATL_I j] ))-2-0001
Office u({nsPfCfor Qe""",1                                                                   tlup.12{)()2

                                  RLF Excess Cash Uallince
                                   As of March 31, 2002

           Fund Balance                                                $2.498.\71
           Less: Outstanding Loan Principal 5688.580
                 Committed wans              450,000                    1.I38,580
           Net Fund Balance                                            $1.359,59\
           Less: Uncommitted Cash Allowed·                                624,543
           Excess Cash                                                 $ 735,04 8

           ·EOA allows 25 pen;cnt of the fund balance to be in cash.

Since the corporation reported an excess cash balance on its March 31 and September 30, 2001,
semiaJillual RLF status reports, the corporation has retained excess funds for three consecutive
semiaJUlual periods. The excess funds have resulted from the corporation not making enough
new loans in recent years to use all of the revenues generated by the loan principal repayments
and interest from existing loans and from investment income, In fact, the corporalion made its
last RLF loan in December 1998, or about three and one-half years ago. At the time of our April
2002 audit, the corporation had $450,000 in loan commitments but no new loans in process.

Corporation officials attributed the low level of RLF activity in recent years to several factors.
First, the officials stated that the corporation has alrcady accomplished the RLF's primary
objective of providing loans to assist defense-related businesses in converting to non-defense
sectors and to create new jobs for dislocated workers. Scrond. the officials stated that the RLF
program is hindered by a common pcrceptionthat its loans require too much paperwork. Finally,
the officials stated that some of the corporation's other loan programs arc more attracti\'e
because they offer better financing terms.

I~ecent Effort Made To Increasl'
RLF Markl'ling

The corporation. in January 2002. created a new marketing department with a goal of more
actively marketing the corporation's various loan programs, including the RLF. through a
proactive approach. Corporalion officials stated that the increased marketing of the RLF could
result in increased RLF lending. The officials also stated that they are now largeling the RLF
program to start-up and expanding businesses_

Grantee Response

Corporation officials did not dispute our re]XlI1 finding that the corporation had $735,048 in
excess RLF funds but disagreed with our draft report recommendation that EDA recover the
funds. lbe officials staled lhat EDA. on June 28, 2002, approved an amendment to the RLF plan
allowing the corporation to make a IS-year loan of up to S1.310.000 to AppT~ Laboratory
Services, LLP. The officials further stated that the corporation's board of directors would
probably consider the loan at its August 2002 meeting and lhat. if the loan is approved. there
us. [kpanme,,/ afCommerce                                                AudJI Report A Tl,/5/2J-l-{}()()/
OOicr oU",pec/O(" Grocral                                                                    Augull ]()Q]


would be nO excess cash balance, Therefore. the officials concluded that EDA should not
recover any funds from the corporation. The corporation's complete response, excluding two
attachments, is included as Appendix L

OIG Comments

Corporation officials did not disclose the loan application from AppTec Laboratory Services,
LLP during our April 2002 audit. Therefore, we believe that the corpor<1tion had cither not
rc<:cived the loan applicmion or ' ' 'lIS not processing the application, as a RLF loan, at thai time,
In addition, we were infonned by a corporation official, shortly after receiving the corporation's
July 24. 2002, audit response, that the loan was still being processed,

We have concerns aboulthe lengthy teml. high dollar value and liming of the proposed loan as
weI! as whcther the corporation might hastily approve the loan simply to prevent EDA from
recovering the excess cash, Nonetheless, we recognize the corporation's authority to make Ihe
loan, provided thai the loan fully complies with RLF program and operating plan requirements,
and is made in accordance with prudent !ending practices, If the loan is approved. we plan to
conduct a follow-up audit to determine whether the loan fully complies with all RLF
requircmems.

We have not changed our rcpon finding but based on documentation submined in connection
with Ihe response. we have dc<:reascd the fund balance by $300 to $2,498,171, and the excess
cash tmlance by $225 to $735.048, We have also modified our recommendation to recognize the
proposed loan's possible approval. However, if the loan IS not approved. we believe EDA
should inunediate!y recover its share of the excess funds, Since the RLF was initially comprised
of $1,600,000 in EDA funds and 5750.000 in corporation matching funds. 10laling 52,350,000,
EDA funds account for 68,0851 percem oflhe fund's assets. Therefore, EDA's portion ofthc
$735,048 in excess cush is $500,458.

Recommcmlalion

We recommend Ihat, if the loan to AppTec Laboratory Services. LLP is nOI approved. EDA's
l'hiladclphia Regional Director immediately recover th~ agency's $500,458 share of the
5735.048 in exeess funds and remit the funds 10 the U.S. Treasury.

}'unds 10 Be I'ul to Beller Use

Iflhe proposed loan is not approved and EDA recovers its $500.458 pro rata share of the excess
RLF funds and remits Ihc funds to the U.S. Treasury, the funds will be put to bener use.




                                                   ,
US. Df'partmem ofCommerce                                           Audit Report ATL·Jjl?3-2-W01
otlict- o(Jm"g;IQC G""f'a1                                                           A,m", 1002

CORI'ORATION liAS NOT CO"lI'L1EI) wrnl CERTAIN
OTHER RLF AI)i\IINISTRATIVE REQUIREMENTS

lbe corp.:mltion has also not complied with certain other requirements of EDA's RLF G",nrs
Administrati"" Mamwl. Specificall}, the corporation did not record $16.410 in RLF lo~n fees as
income or deposit the income into the RLF accounl, did not submit RLF status reports to EDA
for three semiannual periods, and reported inaccurate and incomplete data to EDA in the latest
RLF status report and submined the report late, The corporation also did not submit required
annual RLF plan certifications to EDA and mistakenly charged $4.875 in administrative costs to
the RLF.

Some RLF Loan Fees Not
Recorded in Fund Account

EDA's RLF Grants Administrative Manllal, Section VII.A and 8., defines RLF income and
contains the general requirements for recording and using income. Section VIl.A., defines RLF
income as interest earned on outstanding loan principal, interest earned on investment accounts,
all loan fees and related charges reeeived from RLF borrowers. and other income generated from
RLF operations. Section VII-B. states that RLF income should generally be used to offset loan
10S5Cs and supply additional capital for future lending,

The corporation collected S65,lll in RLF loan fees during the nine-year period from the RLF's
April 1993 commencement through March 31,2002. However, the corporation did not record
$16,410 of the fees as income or deposit the funds into the RLF account, which caused the
corporation's RLF capital balance to be understated by this amount. Corporation officials could
not explain why the loan fees were not recorded as income but slated th<lt they would make the
necessary accounting adjustments and deposit the funds into the RLF account,

Priur RLt' Reports Nol Submiued

EDA's RLF Grants Admini,~tral;,-e Manual. Se>:tion XI.A.2 .. generally requires that RLF
operators submit to EDA semiannual reports on their operations. EDA uses the reports to
monitor the grant projects to ensure that operators are managing their funds In accordance with
their RLF plans and the agency's administrative requirements. However, the corporation did not
submit semiannual RLF status reports to EDA for the three periods cnded September 30, 1999,
March 31, 2000, and September 30, 2000. Corporation officials stated that the reports were not
submitted because a former employee, responsible for the reports, failed to perfonn his reporting
duties.

Latest RLF Reporl Not Accurate,
Complete or Timely

EDA's RLF Grams Adminislratil"e Manual. Section XI.A.2.. states that semiannual RLF status
reports are due on October 3 I for the period ending September 30, <lnd April 30 for the period
ending March 3 I. The manual provides a st:mdard report fonnat and instructions that require
(lS~ofC_~                                                                 .4wdll Rrr-r .4TI.-/ j /2J-UJOOI
otli<'r rlt"'n«tqr GmqqI                                                                     ttWIII/lOOl

RLF operators 10 report on their cumulativc loan OpcnlUons through each $emiannU31 period. In
Ofd<:,r to senc as an dfccth~ EllA monitoring 1001. 11 is essential that the reports be complC'lc.
~urate      and SIIbmined on time EDA also   rt'qlUl1:S   that report 3CCurac) be emilied by a RLF
offici:d.

1I0wcv·cr. the corporation reported inaccuralc dam 10 EDA on its latest semiannual RLF SUlIUS
repon for thc period ended Seplcmber 30. 2001. Specifically. the OOI'pOrntion undcrstated its
cumulative loan fcc income by S.:I6.ggg by reponing only 518,223 in loan fees mstead oflhc
565.111 in actual loan fees collected. In addition. the corporation overslQtc<l its cumulative
investment income by 569.348 on Ihe repon b} reporting loan principal rcpa}'mcnts as
investment interest. Finally, the corporation did not repon the $4.875 in cumulative RLF
administrative costs discussed belo\\.

In addition to reponing inaccuratc data. corporntion officials also did not complete $evern.1 repon
sections or cenif) the repon's accuracy as required by EDA Also. EllA did not rc'CCi\~ the:
rcport until tlKII'e than one: month after the Oc~r 31. 2001. due date. Corporation officials
aclno..... ledged the rcponing deficiencies and attributed them 10 a former emplo)'Ce responsiblc
for prq>aring the re-pons. The officials stated that the corpomliOD'S TlCxt semiannual RLF status
report would contain accurate mcome and cost data and be subrnined on time

RLF Plan CO:-r1ifieutions
Not Submillw

EllA's RLF Granls Admm;stralm.. Manual, Section VIII.D.. requires each RLF opeTlItor to
ccrtif}' annu:dly to EllA thai (I) the RLF plan is consistent with and supponi\'e of the area's
current economic adjustment stralegy. and (2) the RLF is being opernted in accordance with the
plan's policies and procedures, and that the loan portfolio meets the plan's standards. 1he
annual ccrtification procedur~ is intended to assure EllA that opcralOrs an: revicwing their plans
otleast annually and that their operalions conform to the plan. The annual ccnifieation is
supposed to be submill~d wilh the semiannual RLI' SlalUS report for thc Scptember 30 period.

Ilowevef. the torpor,nion did not submit annual RLF plan certifications to EDA for the three
)can; ended September 30. 1999.1000 and 2001. and a corporation official Stated that nc did oot
believc the corporation h:Id cvcr complied "';Ih Inc requiTC1TlCTll Tbc offici:d also stated that nc
was unaware of the EDA rtquH~mcnt but that the co.ponnion would $!Ibmit annual RLF plan
C'CItifications to EDA m the futUll:.

RLF Administl'llth·t Cosh
Mistakcnl} Cbargfil

EllA's RLF GranlJ Admmis/ratil'l" Manual. Sectioo VI.A . allows RLF openltors to tISC RLF
illCome to COH'r e1igiblc. reasonable and documented administrntilc costs, The corporntion's
RLF plan also prD\ides for the charging of administrnti\c COStS but eorporntion officials stllled
Ihattheir prnctiee has been 1101 to charge such costs, However, our audit found Ihat the


                                                  ,
                                                                       A..all RIpon ATL-15J)l·U)OO/


corpondioo bad charicd S4.87S in cumulaun: RJ.F admini5Ua1i\~ costs through March 2002.
Corporation officials SUIted !hat the rosts "'~rc mistakenl) ch:trged to the: RLF and Wtlbey ",~II
rclmbur.;e the RLF acoounl.

Gnmtee Re:sponse

Corporation officials agreed with the droft report findings and recommendations and indicated
that they have or will tale the ne<;;essary corrective actions to implement the recommendations.
S~ifically, the officials stated that they (I) have recorded S16,410 in previously ulU'«oroed
loan kes as RLF income and deposited the funds into the RLF account, (2) will submit fmure
semiannual RLF statuS reports 10 EDA in a complete, accurate and timely manner. (3) will
submit an annual RLF plan ecrtification to EDA with each September 30 semiannual RLF stalUS
report. and (4) have reimbursed the RLF aceount for the $4.875 ill mistakenly charged
administrntive costs. The officials submined documenlation. in conneclion with the response,
supporting their deposit of$21,285 into the RLF lIC(:ountto correct the t"'o financial findings.
The corporation's complete response. exdudll1g two attaehmenlS. is included as Appendix I.

OIG CommenlS

We coocur ",ith the corporatlon's affumathe response. We baH' not modified our report
findings but have dttre3sed the amounl ofunrttorded loan fees b~ $300 10 S16,4 10 to reneet
dcM;umcmation submitted by tbe corporalion In COIU1e'Ction with the response, In addllion.
beca1l5C the corporation has implemented tWO of the draft report recommendation~by depositing
$21.285 into the RLF lIC(:ount. "'"C have omined those m:ommendati()l'l$. However. "'~ have
retained the two other draft report m:ommendati()l'l$, pertaining to the submission of semiannual
RLF SIaIUS reports and annual RLF plan certifications, because the corporation has not yet fully
implemented the l'Ci:ommcndations.

l~eeol11 mendat iOlls


We rcoommclld that EDA's I'hiladelphia Regional Director require the corporation to <I) submit
all required semiannual RLF status reports to EI)A and ensure that the reports are complete.
accurate and timely. and (2) submit annual RLF pllln certifications and nec<'ssaTy pilln
modiffCations to EDA.

FUllds 10 Be PUIIO      Ikurr Uu

B) implementing two oftbe draft report recommendations. 521,285 was deposited into the RLF
account and is I10W lI.\"lIilablc foc RLF lending. This has allowed tbe funds to be put 10 bcner use.




~7J(./..
~r.
Region;>1 lnspt.'<::tor Gellcral
                                             •   Date

  for Audits
                                                  •
                                                                                                                   AI'I'E1<1HX 1
                                                                                                                   Page 1 of 4




                                          Philadelphia Industrial Development Corporation
        Peter S. Longstreth
               PrtIsJd,nl

July   ~4.   2002


William F. Bedwell, J~.
Regional Inspector General for Audits
Office of Inspecto~ General
U.S. Department of Comme~ce
401 West Peachtree Street. N.W.
Suite 2742
Atlanta, GA 30308


Dea~ ~~.     Bedwell,

This lette~ is in response to the draft audit ~epo~t ('ATL-lSI23-2-XXXX)
concerning the follO'o"';ng Department of Coomerce (DOC) financial assil>tance
award:

        Recipient,           Philadelphia Authority fo~ Industdal Development                                 I!'AlD)
        G~ant No. ,          01-49-0327'
        DOC Agency:          Economic Development Administ~ation (BOA)


With ~e5pect to the recommendations found on page 8 of the above-mentioned
report, we present the following facts for your consideration,

RBcommendatlon '1 (pagB 8)   As requested, the $16,710 in unrecorded loan fees
was ~eco~ded as RLF income, and cash in the same amount was deposited into the
RLF account.

RBcommendation '2,   Inasmuch as the RLF status reports are cumulative in
nature, missing reports prior to the ~atch 3L 200~ one will not be filed.
The March 31, 2002 report was corrected and mailed April 25, ~002 to Mr. Paul
Matyskiela of the Philadelphia Regional OHice (attached). Beginning with the
September 30. 2002 report, all future semi-annual reports will be complete,
accurate and timely.

RecommendAtion ~3: An RLF plAn certification for the year ended September 30,
2002 will be SUbmitted, a8 required. with the RLF status report for
september 30, 200~. Thereafter, an annual plan certifiCAtion will be
o\ll>mitted with eAch September 30'" semi-annual RLF status report.

Recommendation '4: The $4.875 in administrative Coots mistakenly charged to
the RLF has been reimbursed to the RLF, as requested.

In addition to the above Recommendationa, on page 5 of the report it is
recommended that EDA's Philadelphia Regional Director recover $735,273 in
excess funds and remit the recovered amount to the U,S, Treasury. On June 28,
2002. the date of the draft report. Mr. Paul M, Raetsch, Regional Director of

                                                                                                             RECEIVED
                                                                                                                JUL 2 9 2002
                     2600   cem'e Sq"",e W.,t   '500 Markel St,ee'    Phi136.lphia    PA        19102-2126   BY;
                                215496 8020     fAA 215,977.9618     .-rm~ lr>1o@po<lc·pa_or~
                                                                                   APPENDIX I
                                                                                   Page 2 of 4


William F. Bedwell. Jr.
July 24, 2002
page 2




EDA. approved an Amendment to the RLF Plan to allo~ on a one-time baBis a
maximum loan of $1,310,000 of up to 15 years to AppTec Laboratory Services,
LLP (attached)   It is expected that the Board of Directors ~ill consider the
transaction at its August meetin9, and settlement ia anticipated shortly
thereafter.

If the "RLF Excess caBh Balance AB of March 31, 2002" computation found on
page 4 of the report is revised to reflect the AppTec transaction as shown
belo~. there ~ould be no Excess Cash on hand.


                            RLF Excess Cash Balance
                             As of March 31, 2002

      Fund Balance
      heBS' outstanding Loan Principal           $    6ee,580
             Cormtitted Loans (including AppTec)   1,760,OOO          2,448,580
      Net Fund Balance                                            S      49,e91
      hess,  unCOlmlltted Cash Allo~ed                                  62i,618"
      Excess Cash                                                 ;           Q


      'BDA allows 25 percent of the fund balance to be in cash.


We therefore respectfully request that we not be required to return fundg to
the U.S_ Treasury.

I   trust you ~ill find this letter respongive to the recommendations contained
in the subject draft report.    I want to ackno~ledge the prOfessional manner in
~hich Mr. Demetrius Bowman of your staff conducted the audit and thank you for
.. llo~ing us the opportunity to respond to the draft report_

Should you have any questions about this response, please do not hesitate to
call me at 1215) 496-8140.  Thank you.


Sincerely,




21:':o~
Executive vice P,-esident


NJP,td..
Attachment
cc:   Paul M. Raetgch, Regional Director
      philadelphia Regional Office
      Economic Development Administration

      Peter S. Longstreth, PlDe
      Joseph L_ Gardner. PIDC
      Jean DeBellia, PIoe
                                                                                             APPENDIX I
                               u.s. DEPARTMENT OF COW.\ERCE
                                                                                             Pflge 3 of 4
                               Economic Developmenl Administrat,on
                                          The CUrllS Cer1ter
                                           SUtte 140 South
                                    lr1deper1der1ce Square West
                              Philadelphia, Pennsylvania 19106-3323

June 28, 2002


Mr RObel1 A Fma
Semor Vice President
Phdadelphla Industrial Development Corporation-
2600 Centre Square West
1500 M~rkel Street
Phil~delphla, Pennsylvama 19102-2126


RE     EDA PrOject No 01-49-03274
       Amendment Number 5

Dear Mr Filla

In response to your request, we arc pleased to advise you that pursuant to the authorilY provided
to the ASSl5lant Secretary for EconOll1lC Development by amtnded Public Works and Economlc
Development Act of 1965 and by The Econonuc Developrnent AdmmistrJTIOn RefOlm Act of
1998, and pursuant to the authority delegated by the Assl.\tam SeCretalY TO the ReglOnal DlTector,
the EcOnOlTllC Development AdminISTration (EDA) IS offering to the PhiladelphIa Authority for
Industrial Development (RecipIent) an Amendment to the EDA Award Agreement governing the
above-referenced Econoll1lc AdjustmenT Program project

This Amendment hereby modifies the Award Agreement.as follows

                Amends the approved RevolVing Loan Fund Plan to allow on a one-tm1e basis a
                m3XlInum loan amount of $1 ,310,000 and a maximum term of 15 years to permit
                a loan to AppTec Laboratol)' SerVices, LLP, whIch win generate excepllonaljob
                creallon and other economIC benefits. With the exc"]J\lon of the loan 10 AppTec
                Laboratory Services, LLP, all provisIOns of the approved RevolVing Loan Fund
                Plan will remain m effen

The scope OfWOlk fOithe projeCT IS not changed by this Amendment There will be no change 10
the purposes, benefits, or overall aCI!VIlles approved.as pm1 ofth~ project due to thIS
Amendment Alitellll'i and condllions of the Standard Tertn.<; and Condmons, the General Toms
and Cond'IlOll5, and the Special Terms and Conditions other than those spnifically modIfied m
thIS Amendment remam unchanged
                                                                                        APPENDIX I
                                                                                        Page 4 of 4




                                       -2-

EDA Project Number: 01-19-03274


If the prOVlSions of this Award Amendment an: acceptable, please sign one copy of this Award
Ameodment and return 11 to me at the Philadelphia RegIonal Office of EDA Keep oue executed
copy oftbe Award Amendment for your files


Dated this _"2"8"°,--_ day of June, 2002




Paul M Raetscb
Regional Director



The foregoing Award Amendment is hereby accepted



Daled tbis   8th     day   Of~' 2002

 Ik /)
  ~ -;/
~~---                                           Title
